No. 19-

IN THE

Ottprente Court of tbe Einitett ffptatel
JERUD BUTLER,
Petitioner,
v.
BOARD OF COUNTY COMMISSIONERS FOR SAN MIGUEL
COUNTY, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,689 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 3, 2019.

Colin CaseyUHogan
Wilson-Epes Printing Co., Inc.

